<html>
<title> - NOMINATIONS OF DARCI L. VETTER, TO BE CHIEF AGRICULTURAL NEGOTIATOR, WITH THE RANK OF AMBASSADOR, OFFICE OF THE UNITED STATES TRADE REPRESENTATIVE; STEFAN M. SELIG, TO BE UNDER SECRETARY FOR INTERNATIONAL TRADE, DEPARTMENT OF COMMERCE; HENRY J. AARON, TO BE A MEMBER OF THE SOCIAL SECURITY ADVISORY BOARD (REAPPOINTMENT); LANHEE J. CHEN, TO BE A MEMBER OF THE SOCIAL SECURITY ADVISORY BOARD; AND ALAN L. COHEN, TO BE A MEMBER OF THE SOCIAL SECURITY ADVISORY BOARD</title>
<body><pre>[Senate Hearing 113-538]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-538

                    NOMINATIONS OF DARCI L. VETTER,
                    STEFAN M. SELIG, HENRY J. AARON,
                   LANHEE J. CHEN, AND ALAN L. COHEN

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                                 on the

                             NOMINATIONS OF

DARCI L. VETTER, TO BE CHIEF AGRICULTURAL NEGOTIATOR, WITH THE RANK OF 
AMBASSADOR, OFFICE OF THE UNITED STATES TRADE REPRESENTATIVE; STEFAN M. 
  SELIG, TO BE UNDER SECRETARY FOR INTERNATIONAL TRADE, DEPARTMENT OF 
    COMMERCE; HENRY J. AARON, TO BE A MEMBER OF THE SOCIAL SECURITY 
 ADVISORY BOARD (REAPPOINTMENT); LANHEE J. CHEN, TO BE A MEMBER OF THE 
 SOCIAL SECURITY ADVISORY BOARD; AND ALAN L. COHEN, TO BE A MEMBER OF 
                   THE SOCIAL SECURITY ADVISORY BOARD

                               __________

                              MAY 8, 2014

                               __________

   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                                  
                                     

            Printed for the use of the Committee on Finance

                            ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

92-748-PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
        DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001






















                          COMMITTEE ON FINANCE

                      RON WYDEN, Oregon, Chairman

JOHN D. ROCKEFELLER IV, West         ORRIN G. HATCH, Utah
Virginia                             CHUCK GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         MIKE CRAPO, Idaho
DEBBIE STABENOW, Michigan            PAT ROBERTS, Kansas
MARIA CANTWELL, Washington           MICHAEL B. ENZI, Wyoming
BILL NELSON, Florida                 JOHN CORNYN, Texas
ROBERT MENENDEZ, New Jersey          JOHN THUNE, South Dakota
THOMAS R. CARPER, Delaware           RICHARD BURR, North Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
SHERROD BROWN, Ohio                  ROB PORTMAN, Ohio
MICHAEL F. BENNET, Colorado          PATRICK J. TOOMEY, Pennsylvania
ROBERT P. CASEY, Jr., Pennsylvania
MARK R. WARNER, Virginia

                    Joshua Sheinkman, Staff Director

               Chris Campbell, Republican Staff Director

                                  (ii)













                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Wyden, Hon. Ron, a U.S. Senator from Oregon, chairman, Committee 
  on Finance.....................................................     1
Stabenow, Hon. Debbie, a U.S. Senator from Michigan..............     3
Hatch, Hon. Orrin G., a U.S. Senator from Utah...................     4
Cardin, Hon. Benjamin L., a U.S. Senator from Maryland...........     7
Portman, Hon. Rob, a U.S. Senator from Ohio......................     9
Warner, Hon. Mark R., a U.S. Senator from Virginia...............    10
Brown, Hon. Sherrod, a U.S. Senator from Ohio....................    11

                         CONGRESSIONAL WITNESS

Johanns, Hon. Mike, a U.S. Senator from Nebraska.................     6

                        ADMINISTRATION NOMINEES

Vetter, Darci L., nominated to be Chief Agricultural Negotiator, 
  with the rank of Ambassador, Office of the United States Trade 
  Representative, Washington, DC.................................    12
Selig, Stefan M., nominated to be Under Secretary for 
  International Trade, Department of Commerce, Washington, DC....    13
Aaron, Henry J., Ph.D., nominated to be a member of the Social 
  Security Advisory Board for a term expiring September 30, 2014, 
  and for a term expiring September 30, 2018 (reappointment), 
  Social Security Administration, Baltimore, MD..................    15
Chen, Lanhee J., Ph.D., nominated to be a member of the Social 
  Security Advisory Board for a term expiring September 30, 2018, 
  Social Security Administration, Baltimore, MD..................    16
Cohen, Alan L., Ph.D., nominated to be a member of the Social 
  Security Advisory Board for a term expiring September 30, 2016, 
  Social Security Administration, Baltimore, MD..................    17

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Aaron, Henry J., Ph.D.:
    Testimony....................................................    15
    Prepared statement...........................................    29
    Biographical information.....................................    30
    Responses to questions from committee members................    47
Brown, Hon. Sherrod:
    Opening statement............................................    11
Cardin, Hon. Benjamin L.:
    Opening statement............................................     7
Chen, Lanhee J., Ph.D.:
    Testimony....................................................    16
    Prepared statement...........................................    48
    Biographical information.....................................    49
Cohen, Alan L., Ph.D.:
    Testimony....................................................    17
    Prepared statement...........................................    61
    Biographical information.....................................    63
    Responses to questions from committee members................    74
Hatch, Hon. Orrin G.:
    Opening statement............................................     4
    Prepared statement with attachment...........................    76
Johanns, Hon. Mike:
    Testimony....................................................     6
Portman, Hon. Rob:
    Opening statement............................................     9
Selig, Stefan M.:
    Testimony....................................................    13
    Prepared statement...........................................    82
    Biographical information.....................................    84
    Responses to questions from committee members................    91
Stabenow, Hon. Debbie:
    Opening statement............................................     3
Vetter, Darci L.:
    Testimony....................................................    12
    Prepared statement...........................................    99
    Biographical information.....................................   101
Warner, Hon. Mark R.:
    Opening statement............................................    10
Wyden, Hon. Ron:
    Opening statement............................................     1
    Prepared statement...........................................   109

 
                 NOMINATIONS OF DARCI L. VETTER, TO BE
                  CHIEF AGRICULTURAL NEGOTIATOR, WITH
                     THE RANK OF AMBASSADOR, OFFICE
                       OF THE UNITED STATES TRADE
                  REPRESENTATIVE; STEFAN M. SELIG, TO
                BE UNDER SECRETARY FOR INTERNATIONAL
                     TRADE, DEPARTMENT OF COMMERCE;
                 HENRY J. AARON, TO BE A MEMBER OF THE
                     SOCIAL SECURITY ADVISORY BOARD
                 (REAPPOINTMENT); LANHEE J. CHEN, TO BE
                    A MEMBER OF THE SOCIAL SECURITY
                   ADVISORY BOARD; AND ALAN L. COHEN,
                 TO BE A MEMBER OF THE SOCIAL SECURITY
                             ADVISORY BOARD

                              ----------                              


                         THURSDAY, MAY 8, 2014

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 10:05 
a.m., in room SD-215, Dirksen Senate Office Building, Hon. Ron 
Wyden (chairman of the committee) presiding.
    Present: Senators Stabenow, Cardin, Brown, Warner, Hatch, 
Grassley, Crapo, Thune, Isakson, and Portman.
    Also present: Democratic Staff: Joshua Sheinkman, Staff 
Director; Michael Evans, General Counsel; Jocelyn Moore, Deputy 
Staff Director; Tiffany Smith, Senior Tax Counsel; Tom Klouda, 
Senior Domestic Policy Advisor; Jayme White, Chief Advisor for 
International Competitiveness and Innovation; and Anderson 
Heiman, International Competitiveness and Innovation Advisor. 
Republican Staff: Chris Campbell, Staff Director; Everett 
Eissenstat, Chief International Trade Counsel; Jeff Wrase, 
Chief Economist; and Nicholas Wyatt, Tax and Nominations 
Professional Staff Member.

   OPENING STATEMENT OF HON. RON WYDEN, A U.S. SENATOR FROM 
             OREGON, CHAIRMAN, COMMITTEE ON FINANCE

    The Chairman. The Finance Committee will come to order. 
Today the committee has before it five nominees, all of whom 
have exceptional backgrounds and expertise in their fields. 
Their commitment to public service is truly admirable and an 
example for all to follow.
    First up will be Stefan Selig, who is nominated to be 
Undersecretary of Commerce for International Trade. In this 
role, Mr. Selig would oversee the International Trade 
Administration at the Department of Commerce. ITA's focus is on 
the competitiveness of American businesses. The agency plays a 
key role in American trade policy by working with the private 
sector to identify export and investment opportunities and by 
enforcing our trade remedy laws that are central to combating 
unfair trade.
    Mr. Selig is well-suited to take on this challenge. He 
knows how to navigate the global economy, and he understands 
what our businesses need to be competitive. If confirmed, he 
must ensure that we step up enforcement of our trade remedy 
laws.
    Next, we will hear from Darci Vetter, a Finance Committee 
alum who has been nominated to be Chief Agricultural Negotiator 
at the Office of the United States Trade Representative. If 
confirmed, Ms. Vetter will have the important task of being the 
lead trade negotiator to take on the tariff and nontariff 
barriers that are imposed all over the world on American 
agricultural exports.
    Our country has an ambitious trade agenda, with important 
agricultural negotiations taking place among the world's 
biggest and most dynamic markets. It will be important for the 
United States to have a skilled hand in these negotiations, and 
Darci, in my view, is the right person at the right time.
    Right now, for example, our country is in the middle of 
important yet challenging negotiations with Japan and other 
Trans-Pacific Partnership participants regarding America's most 
important agricultural crops: wheat--especially important to my 
home State of Oregon--dairy, and poultry. We will be relying on 
Darci to push for the comprehensive and ambitious outcome that 
our farmers and our producers expect and our economy needs.
    Also with us are three nominees for the Social Security 
Advisory Board: Drs. Henry Aaron, Lanhee Chen, and Alan Cohen.
    The Board is responsible for advising the President and the 
Congress on Social Security policy, and regularly makes 
important policy recommendations to enhance economic security 
for individuals, to maintain the solvency of the Social 
Security programs, and to improve services for seniors and 
other beneficiaries. In my view, all three have excellent 
credentials and, if confirmed, would bring an impressive and 
diverse set of perspectives to the Board.
    The Board plays a key role in the Social Security policy 
process, producing top-notch bipartisan reports on a range of 
issues, and yet the Board has not had a full seven members 
since September of 2008. This is unacceptable, given the 
numerous challenges facing the program today and in the future. 
The Congress certainly shares some of the blame here, but we 
now have a chance to set things right.
    First we have Henry Aaron. Dr. Aaron has had an illustrious 
career in both the public sector and academia, including over 
45 years with the Brookings Institution. I commend the 
President for this excellent choice.
    Dr. Aaron is one of the country's foremost experts on 
Social Security, and his many publications and contributions to 
the program make him an invaluable asset. And it is with a bit 
of disappointment that I note that this is Dr. Aaron's second 
appearance before the committee. His previous nomination was 
the first ever to have votes against it in committee, and I 
think that is regrettable.
    We have three nominees before us today. In my view, they 
are all well-qualified and hold strong views. Individual 
Senators may disagree with those views, but that disagreement 
should not cause the committee to oppose their service on this 
important and, I would note, bipartisan Advisory Board. I urge 
my colleagues to support all three nominees so we can get the 
Board back to full strength.
    Next is Mr. Lanhee Chen, also nominated to the Social 
Security Board. Dr. Chen, in my view, has a stellar academic 
record and has made valuable contributions in a number of 
policy fields, including Social Security. If confirmed, he will 
bring a distinct and valuable perspective to the Board.
    Finally, we have Alan Cohen. Dr. Cohen has had a long and 
prestigious career in public service. We all know him from 
these very rooms, from the halls outside the Finance Committee. 
We thank him for his decade of service here on the Finance 
Committee.
    His knowledge of budgetary matters and Social Security is 
simply unmatched, and I know that personally, because I have 
asked for his counsel on many occasions. His wide range of 
experiences in both the Congress and the Federal Government 
give him a level of expertise and insight the Board will surely 
benefit from.
    In short, all of the nominees here today are well-qualified 
to take on the challenging tasks before them, and my hope is 
that they will be confirmed as soon as possible.
    Senator Hatch, our ranking member, is not here. When he 
arrives, he will give his opening statement, so I want all 
witnesses and members to know that when Senator Hatch arrives, 
he will give his opening statement.
    [The prepared statement of Chairman Wyden appears in the 
appendix.]
    The Chairman. I would also like to note that Senator 
Stabenow is very much under the gun today and would like to say 
a few words. She, of course, is the chair of the Agriculture 
Committee. And I think you wanted, Senator Stabenow, to say a 
few words about Ms. Vetter and your relationship with her.

          OPENING STATEMENT OF HON. DEBBIE STABENOW, 
                  A U.S. SENATOR FROM MICHIGAN

    Senator Stabenow. I did. Well, thank you, Mr. Chairman, for 
allowing me. We all juggle committees, and today I am doing 
that.
    And I just first want to say that I strongly support all of 
our nominees and welcome you to the committee. It is great to 
see also Senator Johanns, a distinguished member of our 
Agriculture Committee, who, by the way, was a leading voice in 
establishing a new trade leader within USDA. So it is wonderful 
to have you with us.
    But I did, Mr. Chairman, want to speak specifically about 
Ms. Vetter, Darci Vetter. We are so fortunate to have her 
today, and I am happy to join the 97 farm and food 
organizations who have endorsed her nomination.
    I witnessed firsthand in Brazil last summer, traveling with 
Darci and with the Secretary, as well as during the Farm Bill 
negotiations, her skill and the fact that she is a fierce 
advocate for farmers and ranchers and rural communities.
    And so we have a lot of challenges. You and I have had the 
opportunity--I appreciate it--in my office to talk about what 
is happening as it relates to Asia, Europe, South America, and 
all the other areas.
    I am very, very confident in Ms. Vetter's abilities, and 
so, just to my colleagues on the committee, I wanted to lend a 
strong endorsement of support.
    Thank you, Mr. Chairman.
    The Chairman. Our colleague, Senator Hatch, is here, and we 
would welcome his remarks. And, as we have done since I became 
chair, we are going to work on these nominees in a bipartisan 
way. That is the way we are going to work on everything here.
    Senator Hatch, we welcome your statement.

           OPENING STATEMENT OF HON. ORRIN G. HATCH, 
                    A U.S. SENATOR FROM UTAH

    Senator Hatch. Well, thank you, Mr. Chairman. I appreciate 
you and your openness. I want to thank you for holding today's 
hearings. And I also want to thank our nominees for joining us. 
And to begin, I would like to talk about our trade nominees.
    I believe both of these nominees are extremely qualified 
and well-suited to the tasks ahead of them. Mr. Selig, let me 
start with you.
    As you know, I, along with former Chairman Baucus and 
Chairman Camp, introduced the bipartisan Congressional Trade 
Priorities Act of 2014 in January. Commerce Secretary Pritzker 
recommended the introduction of the bill and said that it 
would, quote, ``help in efforts to expand market access for 
American businesses, ensure a level playing field for companies 
selling their goods abroad, and support the creation of more 
American jobs,'' unquote.
    Unfortunately, the rest of the administration has not been 
so vocal. As you know, Trade Promotion Authority, which our 
bill would renew, is how Congress establishes the objectives 
for U.S. trade negotiations, sets consultation requirements for 
the administration, and assures our trading partners that a 
completed deal will have a path for consideration by Congress.
    And frankly, Mr. Selig, without TPA, the President's trade 
agenda, which is extremely ambitious, will fail. I hope you 
share this sense of urgency and that, if confirmed, you will be 
a strong advocate for renewing TPA in short order.
    Now, Mr. Chairman, if I might, I would like to make one 
observation about Mr. Selig's nomination that should not go 
unnoticed. As I understand Mr. Selig's background, he worked as 
a top executive at Bank of America during the most recent 
financial crisis. At times he received bonuses for the work he 
performed there, and, as we all know, many who worked on Wall 
Street in a similar capacity have been castigated by President 
Obama and by Democrats in Congress, often labeled as, quote, 
``fat cats'' and the like.
    On top of that, Mr. Selig has significant investments in 
overseas accounts. We have learned that Mr. Selig was an 
investor in a partnership called, ``Sun Capital Partners V,'' 
which in 2010 was domiciled in the Walker House of 87 Mary 
Street, George Town, Grand Cayman, Cayman Islands. In 2012, 
this partnership was domiciled at the now-infamous Ugland 
House. Mr. Selig's Schedule 2012 K-1 notes that the value of 
his ending capital account was $721,802.
    Mr. Selig was also invested in a partnership called 
Conversus Capital, of Trafalgar Court, Les Banques, St. Peter 
Port, Guernsey, Channel Islands. Mr. Selig's Schedule 2012 K-1 
notes that the value of his ending capital account was 
$1,123,523. Now, this is not the first of President Obama's 
nominees to come before this committee to have these types of 
earnings and investments, all of whom were gladly and 
unanimously supported by my friends on the other side of the 
aisle.
    Now, let me be clear. I do not believe that Mr. Selig has 
done anything wrong. I do not condemn those who make their 
living on Wall Street, and as long as they have paid their 
taxes, I do not have a problem with anyone who makes a foreign 
investment. However, the obvious hypocrisy of the President and 
some of his supporters in Congress should not go unnoticed. 
Indeed, we all remember during the 2012 campaign when President 
Obama characterized these types of investments as, quote, 
``betting against America.''
    Now, I suspect that the vast majority of Democrats in the 
Senate will vote to confirm Mr. Selig, as they should, and as I 
will. I think we are lucky to have people of his qualifications 
in these jobs. Yet I doubt that the class warfare rhetoric 
against Wall Street, against success in the private sector, and 
against overseas investments, will slow down at all.
    Like I said, this is not a knock against Mr. Selig, or 
anyone else, for that matter. I simply believe that the 
inconsistency and unfair, open attacks often levied against 
people who have done similar work in the private sector should 
not go unnoticed.
    That said, let us move on to talk about Ms. Vetter's 
nomination. Ms. Vetter, as you know from your current position 
as Deputy Undersecretary at the Department of Agriculture, the 
tasks ahead of the Chief Agricultural Negotiator are really 
daunting.
    The success of the Trans-Pacific Partnership hinges on 
achieving a full and comprehensive agreement on agricultural 
products with Japan. And this is what has me concerned. Japan 
has reportedly sought to exclude more than 500 agricultural 
product tariff lines from eventual tariff elimination, and this 
would be unprecedented. The United States is party to 17 free 
trade agreements, and only 33 tariff lines have ever been 
excluded from tariff reduction.
    Now, that is 33 lines total, across all 17 free trade 
agreements. Japan is seeking more than 500 in a single 
agreement. Now, other nations are undoubtedly watching how the 
U.S. will address this issue. If Japan is allowed to exclude 
products from liberalization, other TPP countries will soon 
follow, resulting in an even weaker agreement. The member 
states of the European Union are also watching. If the 
administration makes concessions to Japan, every other nation 
we negotiate with well into the future will demand similar 
treatment.
    Well, if confirmed, I hope you will be able to achieve a 
breakthrough with Japan soon. It is far more important to get 
this deal right than to get it done now, and I expect you will 
continue negotiating until you have reached an agreement on 
full and comprehensive liberalization with Japan.
    These are just some of the issues you will have to deal 
with as our Chief Agricultural Negotiator. I do not envy you, 
in many ways. I look forward to hearing your views on these 
matters during today's hearing.
    Finally, Mr. Chairman, three of the nominees before us are 
for positions on the Social Security Advisory Board. These are 
important positions, particularly given the challenges facing 
the Social Security system. Of course, Dr. Aaron has already 
appeared before us, having been previously nominated to serve 
as Chairman of the Advisory Board. My previous comments on his 
nomination still hold, and out of a desire to ensure that 
partisanship be kept at a minimum on the Board, I do not intend 
to support Dr. Aaron's renomination.
    Mr. Chairman, I ask permission that my prior remarks about 
Dr. Aaron's nomination be included in the record at this point.
    The Chairman. Without objection, so ordered.
    Senator Hatch. Thank you, Mr. Chairman.
    [Senator Hatch's remarks appear in the appendix on p. 79.]
    Senator Hatch. Our other two nominees to the Social 
Security Advisory Board, Dr. Chen and Dr. Cohen, like our two 
trade nominees, appear to be well-qualified and well-suited to 
serve in this important capacity. I look forward to hearing 
from them today.
    And, as you can see, Mr. Chairman, we have a lot on our 
plate today, so I want to thank you again for your leadership 
in these areas. I think it means a lot to our country.
    The Chairman. Thank you, Senator Hatch.
    [The prepared statement of Senator Hatch appears in the 
appendix.]
    The Chairman. And our first nominee will be Darci Vetter, 
nominated for Chief Agricultural Negotiator with the Office of 
the U.S. Trade Representative. We would like you--it is a 
tradition here at the Finance Committee to introduce your 
family, Ms. Vetter.
    Ms. Vetter. I am pleased to have with me today my husband, 
Jason Hafemeister, to support me, and I am very thankful for 
his sacrifice, support, and his flexibility as we both pursue 
two careers and support two small children. So thank you.
    The Chairman. Emphasis on flexibility. [Laughter.]
    Ms. Vetter. Exactly.
    The Chairman. And we are glad that you all are here. And 
suffice it to say, Ms. Vetter, you have one of our most 
respected colleagues--you are certainly running with the right 
crowd when you have Senator Johanns with you. And I think we 
would like him to introduce you at this time.

                STATEMENT OF HON. MIKE JOHANNS, 
                  A U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Well, thank you, Mr. Chairman.
    Mr. Chairman and Ranking Member Hatch and members of the 
Finance Committee, I greatly appreciate the opportunity to be 
here this morning to introduce a friend and a colleague through 
the years, Darci Vetter.
    Darci grew up on a farm near Marquette, NE, and I might 
add, it is still operated by the Vetter family. Her background 
is enormously impressive. She has worked on agricultural trade 
issues at USTR, and I might add, on this committee and now at 
the United States Department of Agriculture.
    Now USTR wants her back, and I have to tell you that is 
with very, very good reason. I have seen firsthand Darci's 
commitment to U.S. agriculture, starting when I was the 
Secretary of Agriculture in 2005. We worked together on 
negotiating and implementing trade agreements, breaking down 
trade barriers, and promoting United States agriculture.
    She helped to build the strong link between USTR and USDA, 
which is absolutely critical for trade negotiations. I am 
confident that she will once again be a bridge-builder and be a 
great asset to USTR and, more significantly, to United States 
agriculture in general.
    We need to open more markets around the world to our 
products. She is the person for the job. She is bright, she is 
capable, she knows agriculture, she knows trade, and she is up 
to the challenge.
    So I want to wish Darci the best. I urge the committee to 
support her nomination for Chief Agricultural Negotiator at 
USTR, as I will enthusiastically do myself.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Johanns. I share your 
views about Ms. Vetter, and she is lucky to have you in her 
corner. And we thank you.
    Our second nominee is Mr. Stefan Selig, nominated to be 
Undersecretary of Commerce for International Trade. Mr. Selig, 
can you introduce your family?
    Mr. Selig. Yes, Senator, thank you.
    I have with me today my wife of 13 years, Heidi Selig, 
seated right behind me.
    The Chairman. Very good. Welcome.
    Next up we have Henry Aaron, nominated for the Social 
Security Advisory Board. Dr. Aaron, I understand you have your 
family here.
    Dr. Aaron. Part of my family. My wife is here. My wife of 
51 years, Ruth--who is seated immediately behind me, backing me 
up as usual, as I try to back her up.
    The Chairman. Very good. And I think Dr. Aaron will now be 
introduced by Senator Cardin.
    Senator Cardin?

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                  A U.S. SENATOR FROM MARYLAND

    Senator Cardin. Well, Mr. Chairman, thank you very much. 
And there are two reasons that I am very pleased to introduce 
Dr. Aaron.
    First, Dr. Aaron resides in the District of Columbia, which 
does not have resident Senators. The land was originally from 
Maryland, so Senator Mikulski and I at times adopt those from 
the District as our own. I know that Senator Warner may take 
some exception to that. [Laughter.] But in this case, I am very 
honored to introduce Dr. Aaron.
    I have known Dr. Aaron for many, many years, and I want the 
leadership of this committee to know that I have considered Dr. 
Aaron to be a straight-talker, working with members of Congress 
on both sides of the aisle, trying to build bridges to deal 
with not only the short-term needs of the Social Security 
program, but also the longer-term needs. I value his 
recommendations and judgment and find him to be, as I said, a 
person of incredible knowledge, as the chairman pointed out.
    He has had a long and distinguished career in public 
service, research, and education. He first joined Brookings 
Institution's staff in 1968, and he is currently the Bruce and 
Virginia MacLaury Senior Fellow in economic studies.
    Let me just point out some of his incredible career. As we 
all know, he has been chair of the board of directors of the 
National Academy of Social Insurance. He has authored eight 
books on Social Security and retirement policy and countless 
thoughtful and eloquent articles on this topic. The breadth and 
depth of his knowledge are well-known by national policy-makers 
who seek his expertise and his ideas on improving Social 
Security and Americans' retirement security, and I think he is 
the ideal nominee.
    I want to point out that he previously has been on the 
faculty at the University of Maryland. Whenever I can get a 
plug in for the University of Maryland, I will.
    He has served as Assistant Secretary for Planning and 
Evaluation in the predecessor of the Department of Health and 
Human Services. During the academic year 1996 to 1997, he was 
the Guggenheim fellow at the Center for Advanced Study in the 
Behavioral Sciences at Stanford University.
    He graduated from UCLA, and he holds a Ph.D. in economics 
from Harvard University. He is a member of the Institute of 
Medicine, the Academy of Arts and Sciences, and the advisory 
committee at Stanford Institute for Economic Policy Research. I 
could go on and on and on.
    He is not only well-qualified, he has been involved in our 
political system to try to make a difference in a positive way, 
in a thoughtful, academic way, and I think he is ideally suited 
for the position he seeks. And I thank him and all of our 
nominees for being willing to continue in public service.
    The Chairman. Thank you, Senator Cardin. And I am also 
struck by the fact that, because of your expertise on these 
issues, I think your viewpoints count a great deal. And one of 
the reasons that I think your views are listened to is because 
you have shown great bipartisanship over the years, 
particularly with Senator Portman, going back to the days when 
we were all in the House. And I very much appreciate that, and 
I think it also highlights the bipartisan focus here this 
morning, because our next nominee for the Social Security Board 
is Lanhee Chen.
    And, Dr. Chen, can you introduce your family?
    Dr. Chen. Yes, thank you, Mr. Chairman.
    I am very grateful to have many members of my family here 
from California. This is my wife, Cynthia. With due respect to 
the gentlemen on the panel, I think the best-dressed guy in the 
room is my 3-year-old son Tobin, who is here with us today as 
well. [Laughter.]
    The Chairman. That is saying something. Senator Hatch is 
pretty dapper. [Laughter.]
    Dr. Chen. It is. With apologies to Senator Hatch as well.
    My brother Julius is next to her, and then my parents, Dr. 
and Mrs. Chung-Lien and Ya-Mei Chen, are also here from 
California.
    The Chairman. We are glad that the extended Chen family is 
here.
    Senator Portman, we are glad you are going to introduce Dr. 
Chen.

            OPENING STATEMENT OF HON. ROB PORTMAN, 
                    A U.S. SENATOR FROM OHIO

    Senator Portman. Thank you, Mr. Chairman and Senator Hatch, 
for letting me do that. And although the California members may 
take offense, we have to consider Dr. Chen to be an honorary 
Buckeye, which I will get to in a moment, because he has Ohio 
roots, ultimately.
    But I am really glad that Lanhee is willing to do this. He 
is a talented guy. I have had the pleasure to work with him 
over the years. This is a really important appointment, serving 
on this Board at this time. And I am glad Dr. Aaron is also 
willing to step forward, whom Ben Cardin and I have both worked 
with over the years.
    We do face these rising entitlement costs. We do have to do 
something about the long-term viability of these programs. We 
need smart people who are willing to look at this objectively 
and to help ensure that future generations can rely on this 
important program. And it is at a time when, frankly, the 
country faces dire financial straits outside of Social 
Security, which makes it even more difficult. So I am delighted 
he is willing to do it.
    I want to mention, if I could, the fact that his 3-month-
old daughter, Adeline, is not with us, but she is also part of 
the supportive team. And apparently she was not too happy about 
that, either, not being invited today.
    But his family is just the classic American story. This 
family you see behind him here, his parents immigrated from 
Taiwan in the 1970s, and they came here to seek opportunity, to 
finish their educations. They came separately, but it was the 
State of Ohio that brought them together. And they met while 
his mom was earning her master's degree at the University of 
Akron and his dad was working on his medical training in Ohio 
to be a doctor. So, again, we consider Lanhee to be an honorary 
Buckeye. And here they are, sitting behind you and witnessing 
the first step in their son becoming a presidential nominee.
    It is easy to see why Lanhee has been asked to do this. He 
is a guy who has a great background. He is a research fellow at 
the Hoover Institution, and he teaches at Stanford's Public 
Policy Law School. He has a great academic background in health 
care and has also been involved in retirement security and 
Social Security. He has been a policy advisor for a lot of 
high-profile political leaders.
    And his educational background is not too bad, either. He 
got a bachelor's degree from Harvard; he got a master's degree 
from Harvard; he got a doctorate from Harvard; he got a law 
degree from Harvard. He spent enough time in Cambridge to be 
given tenure at Harvard. [Laughter.]
    But this extensive background and his intelligence and 
expertise will be really valuable as we look at one of our most 
pressing issues that we must address. So I am very proud to be 
here to introduce him and to support his nomination to be a 
member of the Social Security Advisory Board.
    And if you could, Mr. Chairman, indulge me for a second, 
because Darci Vetter is here. And both Darci and her husband, 
Jason, I had the honor of working with at USTR, and they were 
two of the real stars at an agency that does attract some of 
the best and brightest. Even there, they stood out.
    So again, good luck to you, Ms. Vetter, in your nomination. 
And good to see Jason back here in the halls of Congress.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Portman.
    Dr. Chen, I would only say, with that kind of ringing 
endorsement from Senator Portman, you can almost take the rest 
of the day off. [Laughter.] Not quite, but almost. So we are 
happy to have Senator Portman's comments.
    And now our final nominee for the Social Security Advisory 
Board is Alan Cohen. Dr. Cohen, introduce your family, if you 
would.
    Dr. Cohen. Thank you very much, Mr. Chairman. My brother, 
Barry Cohen, is here. My partner, Valerie Nelkin is here. My 
friend, Arthur Friedman is here, and my friends Pat Malloy and 
Jim Frisk are in the audience as well.
    The Chairman. The Cohen caucus. We are glad they are here.
    I think Senator Warner is going to introduce Dr. Cohen.

           OPENING STATEMENT OF HON. MARK R. WARNER, 
                  A U.S. SENATOR FROM VIRGINIA

    Senator Warner. Yes, I will. Thank you, Mr. Chairman. Let 
me just echo one thing that Dr. Chen has said, and I say this 
with some trepidation, being this far down the aisle. I would 
normally agree that Senator Hatch is far and away the best-
dressed, but looking at Dr. Chen's son, Orrin, he has a mean 
vest and a pocket square that any of us would be proud of, and 
I am not sure even you could carry off.
    Senator Hatch. I am really embarrassed with the clothing I 
wore today. [Laughter.]
    Senator Warner. Let me say something about my friend, Alan 
Cohen, who may not be at the same sartorial level, but brings 
other extraordinary talents, as has already been indicated by 
the chairman.
    I have known Alan for many, many years. We both live in 
Alexandria; he has been active in the community in a variety of 
ways. As you have already pointed out, Alan has an outstanding 
33-year career as a public servant, where he has worked on 
Social Security and budget issues in many different areas and 
many different capacities in government.
    I have had the opportunity to actually work with him at a 
local level in Alexandria, where he has helped our local city 
work on budget issues. Obviously, many on this committee are 
familiar with him because of his work with both the Senate 
Budget Committee and the Finance Committee.
    He has served in the executive branch at both Treasury and 
HHS. He has worked under two administrations, both the Carter 
administration and the Reagan administration. Obviously, there 
are very few folks who have that kind of background and tenure 
and knowledge around budget issues, around entitlement issues, 
around Social Security issues. I think he is going to be a 
great member of this Advisory Board.
    And I would echo what Senator Portman said, as someone who 
recognizes that these programs, particularly Social Security, 
may be the best programs any government in any nation has ever 
implemented. But unfortunately, the math around them is 
changing dramatically because of the aging of our population. 
And we are going to need bipartisan advice as we try to make 
sure that we maintain the promise of Social Security for future 
generations.
    So again, Alan is well-known to this committee, and I 
recommend him wholeheartedly.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Brown, I know, is under a time crunch this morning 
as well, and he would like to make some quick comments.

           OPENING STATEMENT OF HON. SHERROD BROWN, 
                    A U.S. SENATOR FROM OHIO

    Senator Brown. Since every other member has introduced 
somebody and I do not have anybody left----
    The Chairman. You feel deprived.
    Senator Brown. Ms. Vetter was actually born in Kettering, 
OH, so--you left that one out, Rob. [Laughter.]
    Anyway, I appreciate the chance to just say 2 minutes of 
comments about this hearing and this Social Security Advisory 
Board.
    I am concerned about this Board, really since the attempts 
at privatization of Social Security in the middle part of the 
last decade. I am concerned about the sort of too-fractious 
nature of the Social Security Advisory Board. It is not always 
able to reach the consensus that it used to reach.
    I carry a letter in my pocket, to the grandfather of an 
employee in my office, sent December 1936 from his employer in 
Pennsylvania about the beginnings of Social Security. We are 
going to start taking 1 percent out of your salary, then 2 
percent, 3 percent, and you are going to get this money back 
when you are 65--although most people did not live to 65 then. 
Think about how controversial that was.
    But the point is, we came to consensus in this country on 
Social Security. I understand what Senator Warner and Senator 
Portman said about what some call the sustainability. But I 
also know we know how to fix these things.
    My admonition to the three nominees is that you work hard 
on consensus, coming to consensus, in that committee; that we 
do not see abstentions. You put such important information out 
for the public, on big issues and smaller issues, and we really 
do rely on that, policy-makers and the public.
    And what you publish outside of your job--I mean, a number 
of you. All of you are articulate, very smart spokespeople for 
what you believe in. But it is important that when you make 
these statements, if it undermines Social Security as a public 
social insurance program, if your comments do that, you are 
doing it as a member of this Advisory Board, even if you are 
doing it as a private citizen.
    So that is my admonition to the three of you, that I hope 
you will always consider carefully what you publish outside of 
your specific job here on the Advisory Board, and that you will 
work to reach consensus. I hope you will make a special effort 
to do that.
    Thank you.
    The Chairman. Thank you, Senator Brown.
    Senator Grassley is the only Senator who has not had 
anything to say. Would you like to wait for questions, or would 
you like to say anything? Senator Grassley will wait for 
questions. Very good.
    Let us proceed then with Ms. Vetter. We thank all of our 
nominees. Our usual practice is that all of your prepared 
statements will automatically be made part of the record. If 
you could take 5 minutes or so to summarize, we will start with 
Ms. Vetter, and we will go right down the line.
    Ms. Vetter?

      STATEMENT OF DARCI L. VETTER, NOMINATED TO BE CHIEF 
AGRICULTURAL NEGOTIATOR, WITH THE RANK OF AMBASSADOR, OFFICE OF 
         THE U.S. TRADE REPRESENTATIVE, WASHINGTON, DC

    Ms. Vetter. Thank you very much. Chairman Wyden, Ranking 
Member Hatch, and members of the Senate Finance Committee, 
thank you so much for welcoming me here today. And Senator 
Johanns, I thank you for that kind introduction earlier.
    I am very honored to be considered by this committee as 
President Obama's nominee to be the Chief Agricultural 
Negotiator at the Office of the U.S. Trade Representative.
    I want to reiterate my thanks and to recognize my husband, 
Jason Hafemeister, who is with me this morning. He is a 
fantastic partner, as we both pursue careers in public service 
and raise our two beautiful children. I also have close 
friends, Marney Cheek, Carissa Kovner, and Liz Rider here with 
me this morning.
    As an alumna of the Senate Finance Committee, I have had 
the great privilege of working with many of the members and the 
staff on this committee. And, during my time at USTR working on 
agricultural and environmental issues, and at USDA as the 
Deputy Under Secretary for Farm and Foreign Agricultural 
Services, it has always been clear to me that the executive 
branch and Congress must maintain a close working relationship 
on trade issues. This is a relationship I intend to strengthen 
in my new capacity, should I be confirmed.
    I grew up on a family farm in Nebraska, where my family 
also operates a grain processing business that exposed me to 
the benefits of trade at a very early age. In the 1980s, at a 
time when many farmers were moving off the farm, my family 
found foreign markets to sustain our family business. Some of 
our first foreign customers were tofu makers in Japan who were 
willing to pay a premium for our high-quality soybeans. Today, 
our family business has nearly 30 employees, thanks in part to 
open and reliable overseas markets.
    Through both my personal and my professional experiences, I 
have witnessed firsthandthe benefits of trade for American 
agricultural producers. I am committed to leveling the playing 
field for our farmers and ranchers and holding our trading 
partners accountable by enforcing trade rules to ensure our 
products are treated fairly. Using all the tools at our 
discretion, including the Dispute Settlement Body at the World 
Trade Organization, I intend to press our trading partners to 
make decisions based on science and to eliminate unwarranted 
sanitary and phytosanitary measures that restrict safe, 
wholesome U.S. agricultural products from entering their 
markets.
    The United States is the world's largest agricultural 
export economy. U.S. food and agricultural exports reached an 
all-time high in 2013, accounting for $148 billion in exports, 
but I believe there is much more that we can accomplish.
    If confirmed, I am excited to join a dedicated team that is 
working on one of the most ambitious trade agendas in decades. 
The trade agenda holds great potential for made-in-America 
agricultural goods. I am committed to advancing our ongoing 
negotiations in TPP and in TTIP, where we are pursuing high-
standard trade agreements that will create significant new 
market access opportunities for U.S. agriculture. Eliminating 
tariffs and unwanted SPS and technical barriers to trade on 
agricultural products will ensure that our producers can 
continue to export high-quality, safe American food and 
agricultural products.
    Finally, I look forward to working with you, Chairman 
Wyden, Ranking Member Hatch, and the members of this committee, 
to secure Trade Promotion Authority that has as broad a 
bipartisan support as possible. If confirmed, I look forward to 
working with Ambassador Michael Froman and Congress to further 
opportunities around the world for U.S. agriculture.
    Again, I thank the President for this opportunity and the 
committee for considering my nomination, and I am happy to 
answer any questions you might have.
    Thank you.
    The Chairman. Thank you, Ms. Vetter.
    [The prepared statement of Ms. Vetter appears in the 
appendix.]
    The Chairman. Mr. Selig?

 STATEMENT OF STEFAN M. SELIG, NOMINATED TO BE UNDER SECRETARY 
FOR INTERNATIONAL TRADE, DEPARTMENT OF COMMERCE, WASHINGTON, DC

    Mr. Selig. Chairman Wyden, Ranking Member Hatch, and 
members of the committee, I am honored to be under 
consideration for Under Secretary of Commerce for International 
Trade.
    During the past weeks, I have had the opportunity to meet 
with many of you to discuss international trade and investment 
and the International Trade Administration which, if confirmed, 
I would have the privilege of leading. Thank you for your time 
and for sharing your thoughts and insights.
    As we seek to strengthen our Nation's recovering economy by 
creating jobs through expanded trade, increased business 
investment, and the enforcement of fair trade practices, your 
ongoing partnership will be critical, and I look forward to 
working with you, if confirmed.
    I bring nearly 30 years of business and finance experience, 
working with companies in the private sector to create value. 
And I am honored that President Obama and Commerce Secretary 
Pritzker believe that I have the talent, energy, and ability to 
lead the ITA, the premier government resource for American 
companies competing in the global marketplace.
    Throughout my career, I have built and maintained trusted 
strategic relationships with executives from companies around 
the world. I have advised clients across all industries on how 
to take advantage of global investment opportunities, and I 
have worked closely with companies as they have combined their 
businesses to form new ventures. I have negotiated complex 
agreements, facilitated transformational deals, and developed 
partnerships among global entities. This background would serve 
me well if I were to be confirmed as Under Secretary of 
Commerce for International Trade.
    In addition, my experience directing teams across 
geographic regions while serving as executive vice chairman of 
global corporate and investment banking at Bank of America 
should be highly useful in managing an organization of more 
than 2,100 dedicated public servants in more than a hundred 
cities across our country and 77 countries throughout the 
world. If confirmed, I will work closely with ITA's experts to 
develop strategies to increase U.S. exports, boost growth, and 
support good jobs throughout the United States.
    With 95 percent of the world's consumers residing outside 
of our borders, it is critical that we get U.S. businesses, 
especially small and mid-sized companies, to expand their 
strategic vision to include opportunities in the global 
markets. The health of the American economy and the American 
worker is more closely tied to global markets than ever before, 
and our country can no longer rely on just our domestic markets 
for growth and jobs. We can and should be exporting more.
    An additional responsibility of the position for which I 
have been nominated is to attract, retain, and expand foreign 
direct investment in the United States. While the United States 
remains the world's largest economy and the most popular 
destination for foreign investment, there are a number of 
positive secular trends that should allow us to attract even 
more inbound investment to the United States.
    My career has been spent advocating for my clients so they 
can accomplish their strategic goals, and, if confirmed as 
Under Secretary, I will employ this very same impassioned 
advocacy as a voice for U.S. businesses and workers, economic 
development organizations, municipalities, communities, and 
other organizations.
    Finally, if confirmed, I will ensure that Commerce 
continues and builds upon its commitment to the strong 
enforcement of our trade laws, ensuring that our domestic 
industries and workers are not harmed from unfairly traded 
imports or unfair trade practices. I will also work to address 
and remove trade barriers that impede U.S. exporters and 
investors from competing fairly abroad.
    In closing, I believe very strongly that we must do 
everything we can to help American companies, regardless of 
their size, succeed in the global marketplace. We also must 
continue to reinforce the message that American goods and 
services are second to none and that the United States remains 
the most attractive destination for business investment.
    I am truly honored to be considered for the opportunity to 
serve my country as Under Secretary of Commerce for 
International Trade, and I look forward to taking your 
questions.
    The Chairman. We will have some momentarily.
    [The prepared statement of Mr. Selig appears in the 
appendix.]
    The Chairman. Dr. Aaron?

STATEMENT OF HENRY J. AARON, Ph.D., NOMINATED TO BE A MEMBER OF 
      THE SOCIAL SECURITY ADVISORY BOARD, SOCIAL SECURITY 
                 ADMINISTRATION, BALTIMORE, MD

    Dr. Aaron. Thank you very much.
    Senator Wyden, Senator Hatch, committee members, I too am 
honored and pleased to have been renominated by President Obama 
for membership on the Social Security Advisory Board. And I am 
grateful to this committee for holding these hearings, not only 
on my nomination, but also on Dr. Cohen's and Dr. Chen's. I 
very much hope that the committee and the full Senate will 
confirm all three of us so that the Board once again will have 
a full complement of members.
    My interest in Social Security is now in its 6th decade. It 
began with my doctoral dissertation, completed in 1963. I have 
worked on many subjects over my career, including tax policy, 
housing policy, government budget issues and health care 
policies. I have a list of my work on Social Security, culled 
from my resume, which I ask be included in the record, along 
with my remarks.
    The Chairman. Without objection, Dr. Aaron, that will be 
included.
    [Dr. Aaron's list of work on Social Security appears in the 
appendix on p. 43.]
    Dr. Aaron. Thank you.
    The most recent addition to that list is a paper I 
presented at a conference of international experts on the 
challenges posed by population aging, sponsored by Japan's 
Ministry of Finance and the Asian Development Bank, which met 
in March, at which I was asked to represent the United States.
    I believe that my work on topics in addition to Social 
Security is an asset that enables me to consider the issues of 
Social Security policy in the broad budget and policy context, 
not as an isolated entity.
    My career has also included many activities in addition to 
that, in teaching and research. Early in my career, during the 
administration of President Richard Nixon, I was appointed by 
then-
Secretary of Housing and Urban Development Carla Hills to chair 
a review committee on housing allowance experiments, the 
precursor of section 8 housing. I chaired the 1979 Advisory 
Council on Social Security, a bipartisan panel then appointed 
every 4 years to review Social Security issues. That was the 
precursor of the Social Security Advisory Board.
    I now serve as one of four academic members and roughly 30 
venture capitalists and senior business executives who advise 
the Stanford Institute of Economic Policy Research on its 
research agenda. And I was a trustee of the College Retirement 
Equity Fund, a member of the Board of Trustees of the 
Georgetown University, and a member of the Board of Directors 
of Abt Associates, a private social science research and 
consulting firm with current sales of a bit over $500 million a 
year.
    I mention these activities because, like the Social 
Security Advisory Board, those positions required the ability 
to interact with strong-minded people of diverse views, to 
express one's views forthrightly, and yet to work together 
collegially.
    Once again, I want to thank you for considering my 
nomination. I look forward to responding, to the best of my 
ability, to any questions you may pose.
    The Chairman. Dr. Aaron, thank you very much.
    [The prepared statement of Dr. Aaron appears in the 
appendix.]
    The Chairman. Dr. Chen, welcome.

STATEMENT OF LANHEE J. CHEN, Ph.D., NOMINATED TO BE A MEMBER OF 
      THE SOCIAL SECURITY ADVISORY BOARD, SOCIAL SECURITY 
                 ADMINISTRATION, BALTIMORE, MD

    Dr. Chen. Thank you. Chairman Wyden, Ranking Member Hatch, 
and members of the committee, thank you for the opportunity to 
appear before you today. I am honored by the trust that 
President Obama has placed in me, and I am proud to be a 
nominee to the Social Security Advisory Board. I am grateful to 
Senator Portman for his kind introduction and to Senate 
Minority Leader McConnell for the support he has shown to me 
throughout this process.
    You have met my family already this morning. I am grateful 
for their constant encouragement, love, and support, which have 
made this day possible. With me today also is a good friend of 
mine, Sean Memon.
    The Board plays an important role in providing key policy-
makers, including the President and members of this committee, 
with plausible policy alternatives to ensure the solvency of 
Social Security and related programs, the promotion of economic 
security in retirement, and proper coordination between efforts 
to ensure health and economic security for America's seniors 
and disabled. These are all highly laudable goals and ones I 
look forward to promoting, if favorably reported by this 
committee and confirmed by the United States Senate.
    I believe that I possess the necessary experience, 
expertise, and judgment to serve as a member of the Social 
Security Advisory Board. I am currently a research fellow at 
the Hoover Institution and hold teaching appointments in the 
public policy program and the law school at Stanford 
University. Over the course of my professional career, I have 
addressed specific proposals to ensure the solvency of the 
program, studied potential reforms to Social Security at some 
of the country's leading policy research institutions, and 
taught at the university level about entitlement reform.
    I offer a unique perspective, relative to other members of 
the Board, by virtue of the fact that Social Security benefits 
are likely at least 30 years away for me. Many in my generation 
and those younger than me are concerned about the future of the 
program. Reforming the program to ensure its solvency for my 
generation and beyond is a particular interest and concern of 
mine.
    Finally, I believe that the Board can play an important 
role in strengthening the Social Security, Disability 
Insurance, and Supplemental Security Insurance, or SSI, 
programs. But it can only play this role if members of the 
Board perform their duties with an eye toward consensus-
building, bipartisanship, and with mutual respect for one 
another's views.
    I look forward to working with my colleagues on the Board, 
the President, the Commissioner of Social Security, members of 
this committee, the U.S. Congress more generally, and 
interested stakeholders, should I be confirmed.
    Thank you again, Mr. Chairman, Senator Hatch, and members 
of the committee, for the privilege of appearing before you 
today. I look forward to earning your support and will be 
pleased to respond to your questions.
    The Chairman. Dr. Chen, thank you.
    [The prepared statement of Dr. Chen appears in the 
appendix.]
    The Chairman. Dr. Cohen?

STATEMENT OF ALAN L. COHEN, Ph.D., NOMINATED TO BE A MEMBER OF 
      THE SOCIAL SECURITY ADVISORY BOARD, SOCIAL SECURITY 
                 ADMINISTRATION, BALTIMORE, MD

    Dr. Cohen. Chairman Wyden, Ranking Member Hatch, Senator 
Warner, who is not with us at the moment, and the other 
Senators on the Finance Committee, it is a great honor to 
appear before you today as a nominee to be a member of the 
Social Security Advisory Board.
    I especially want to thank President Obama for nominating 
me for this position. I greatly appreciate this opportunity for 
public service that he has given me. And I also want to thank 
Senator Warner for introducing me today.
    The Social Security program provides for wage replacement 
for workers and their families when the principal earner in the 
family retires, becomes disabled, or dies. Without this 
program, many of these families would face very difficult 
financial situations. That is why this program is so important.
    The Social Security Advisory Board makes recommendations 
for the Social Security programs to the President, the 
Congress, the Commissioner of Social Security, and interested 
citizens. Given the importance of the Social Security program, 
the work of this Advisory Board is important as well. That is 
why serving on the Board would be a great honor for me.
    I believe that my educational and professional experiences 
make me ideally suited to serve on this Board. With regard to 
my education, I earned a B.A. in 1972 from Grinnell College in 
Grinnell, IA. I received a master's degree in public policy 
studies in 1975 from the Gerald R. Ford School of Public Policy 
at the University of Michigan's Ann Arbor campus. Finally, I 
received a Ph.D. in economics in 1979 from the University of 
Wisconsin in Madison, WI.
    With regard to my professional experience, I was the 
analyst for the Social Security program for the Democratic 
Staff of the Senate Budget Committee from 1983 through 1991. 
And that position required me to be constantly studying issues 
related to the financing, development, and administration of 
the program.
    From 1993 to the year 2000 I held the position of Senior 
Advisor to the Secretary of the Treasury for Budget and 
Economics. The Secretary of the Treasury serves as managing 
trustee of the Social Security Trust Fund. In that role, the 
Secretary was a participant in all of the discussions within 
the administration regarding Social Security's finances. I 
advised the Secretary as he prepared for all of these 
discussions.
    Finally, from the year 2001 to the year 2012, I served on 
the Democratic Staff of the Senate Finance Committee as the 
chief counselor to the chairman for Social Security. In the 
Senate, the Finance Committee has wide jurisdiction over the 
Social Security program. As a result, it plays a critical role 
in the financing, policy development, and administration of the 
program. In my position as chief counselor, I advised Chairman 
Baucus on all of these matters. My work as chief counselor has 
been especially important in preparing me for the work I would 
do if confirmed to be a member of the Social Security Advisory 
Board.
    Before I conclude, I want to especially thank a number of 
people who have been instrumental in the development of my life 
and my career. This includes my brother Barry Cohen, my partner 
Valerie Nelken, and my sister-in-law Robbie Cohen, who could 
not be here today because of job-related responsibilities. It 
includes all of my aunts and uncles, all of whom have already 
passed away. But of greatest importance, it includes my father, 
Dr. Abraham G. Cohen, and my mother, Ruth Cohen. My mother died 
in 1974 and my father passed away 2 years later. Unfortunately, 
they never had the joy and the pride of seeing many of the 
things I have accomplished in my career. But while they were 
alive, their guidance, their support, and their inspiration 
made me what I am today. I can never thank them enough for what 
they did for me.
    Again, I want to thank the committee for asking me to 
appear today. I would be honored to have your support for my 
nomination, and I would be pleased to answer any questions that 
you may have for me.
    The Chairman. Thank you, Dr. Cohen, and I am sure your 
parents would be kvelling for your wonderful accomplishments. 
[Laughter.]
    [The prepared statement of Dr. Cohen appears in the 
appendix.]
    Dr. Cohen. Thank you very much.
    The Chairman. Now, at this point in the Finance Committee, 
we have to have each nominee respond to four questions. And I 
think, in the interest of time, I am going to ask the question 
once and then go down the row and have each one of you respond. 
They are fairly straightforward.
    So the first question is, is there anything you are aware 
of in your background that might present a conflict of interest 
with the duties of the office to which you have been nominated?
    Ms. Vetter?
    Ms. Vetter. No, Mr. Chairman, I am not.
    The Chairman. Mr. Selig?
    Mr. Selig. No, Mr. Chairman.
    Dr. Aaron. No, sir.
    Dr. Chen. No, Mr. Chairman.
    Dr. Cohen. No, Mr. Chairman.
    The Chairman. Very good.
    The second question is, for each of you, do you know of any 
reason, personal or otherwise, that would in any way prevent 
you from fully and honorably discharging the responsibilities 
of the office to which you have been nominated?
    Ms. Vetter. No, Mr. Chairman.
    Mr. Selig. No, Mr. Chairman.
    Dr. Aaron. No, Mr. Chairman.
    Dr. Chen. No, Mr. Chairman.
    Dr. Cohen. No, Mr. Chairman.
    The Chairman. Very good.
    The third question is, do you agree without reservation to 
respond to any reasonable summons to appear and testify before 
any duly constituted committee of the Congress, if you are 
confirmed?
    Ms. Vetter. Yes, I agree.
    Mr. Selig. Yes, Mr. Chairman.
    Dr. Aaron. Yes.
    Dr. Chen. Yes, Mr. Chairman.
    Dr. Cohen. Yes, Mr. Chairman.
    The Chairman. Very good.
    The last question is, do you commit to provide a prompt 
response in writing to any questions addressed to you by any 
Senator of this committee?
    Ms. Vetter. I do, Mr. Chairman.
    Mr. Selig. Yes, Mr. Chairman.
    Dr. Aaron. Yes.
    Dr. Chen. Yes, Mr. Chairman.
    Dr. Cohen. Yes, Mr. Chairman.
    The Chairman. Very good.
    So now we will recognize Senators for 5-minute rounds. I 
will begin with you, Mr. Selig, and ask simply, I think you 
heard Senator Hatch comment on several of your investments. I 
would be interested, and I think it would helpful for the 
record if you could, in effect, give your response to those 
earlier comments.
    Mr. Selig. Certainly, Mr. Chairman. In 2007 I made those 
two private investments in Sun Capital Partners V and Conversus 
Capital. Sun Capital V is a private equity fund, and Conversus 
is a publicly traded portfolio of private equity funds.
    I have subsequently sold my investment in Conversus, and 
pursuant to my agreement with the Office of Government Ethics, 
I plan to sell my investment in Sun Capital Partners V.
    Prior to Sun Capital Partners V, all of the previous Sun 
Capital funds were domestically domiciled. For Sun Capital V, 
the GP moved the domicile to the Cayman Islands, which I was 
not aware of at the time. As I am not a general partner of the 
fund, I do not believe I received any tax advantage as a 
limited partner, and I paid all of my taxes in full for each 
year of my investment in the fund.
    The Chairman. I want to make sure we got that. You did not 
get, in your view, any tax benefit from either arrangement and, 
in your view, you paid all taxes related to the investments?
    Mr. Selig. That is correct, Mr. Chairman.
    The Chairman. All right. Is there anything else you would 
like to add on that point?
    Mr. Selig. I do not believe so, Mr. Chairman.
    The Chairman. All right.
    Dr. Chen, a quick question for you, if I might. On this 
matter of the writing of articles, do you see any problem with 
nominees to a Federal advisory board like the SSAB writing 
articles on a variety of issues, as long as they are not 
writing on issues the Board oversees?
    Dr. Chen. Mr. Chairman, thank you for the question. I think 
it is crucially important that members of the Board not engage 
in writings that would prejudice discussions or deliberations 
with respect to issues pending before the Board.
    I would say, Mr. Chairman, I do think there are situations 
where a general discussion or exposition of a problem that may 
be related to an issue that the Board is considering may be an 
appropriate grounds for writing. However, none of that writing, 
as I said earlier, should discourage or inhibit any 
conversation that might take place between members of the 
Board.
    And I would adhere to that rule, and I would encourage my 
colleagues to do the same.
    The Chairman. Very good.
    Dr. Aaron and Dr. Cohen, do you largely agree with what Dr. 
Chen said?
    Dr. Aaron. I think he stated it very well.
    Dr. Cohen. Yes.
    The Chairman. Very good.
    My last question really is for you, Ms. Vetter. As you 
know, trade is enormously important to my home State and to our 
country. One out of six jobs in Oregon depends on international 
trade. The trade jobs often pay better than do the non-trade 
jobs because they reflect a very high level of productivity.
    And of course, with respect to agriculture, what we want to 
do is, we want to grow things in America, we want to add value 
to them in America, and then we want to ship them somewhere. So 
your position is of exceptional importance.
    Now, many agriculture groups see huge market-opening 
potential in the Trans-Pacific Partnership negotiations. 
Nevertheless, several of these groups, including a number that 
I care a great deal about, Oregon wheat and dairy producers, 
are concerned that Japan's lack of ambition could result in an 
anemic market access outcome with respect to those sectors.
    You have been closely involved in these negotiations, and, 
as the Chief Agricultural Negotiator at USTR, you would be 
tasked with delivering a deal that wins for all of agriculture. 
Now, I understand the sensitivity of what is going on, but can 
you give us at least some general assessment of what your 
strategy would be for obtaining an agreement that produces the 
most meaningful new market access for a cross-section of our 
agricultural interests, including sectors that obviously the 
Japanese consider sensitive?
    Ms. Vetter. Thank you very much, Mr. Chairman.
    As you noted, these negotiations are in a sensitive stage, 
but I have been actively involved in them. And our negotiations 
with Japan, I think, are picking up the pace.
    We have made good progress with them, and Japan has 
committed that it will not exclude any product from the 
negotiations. Our task right now is to bring home the most 
meaningful and ambitious market access possible across the 
entire spectrum of U.S. agriculture products, and that includes 
the five sensitive product areas that Japan has identified.
    We are working very closely right now with Japan, with our 
stakeholders, and with members of Congress and your staff to 
try to identify what the best landing zone can be on those 
issues and how we can get the most ambitious market opening 
possible with that critical partner.
    The Chairman. Well, I appreciate that, and I have made it a 
special priority to build a bipartisan coalition for the trade 
policies of the future. The stakes are so high, and it is very 
clear that there are opportunities, because this is going to be 
a big education job.
    People talk about TPA. There are just a handful of 
Democrats, for example, who are still in the Congress who have 
had some experience with that and voted for it and the like. So 
we are going to work very closely with you, and we are going to 
work with you in a bipartisan way.
    Senator Hatch?
    Senator Hatch. Well, thank you, Mr. Chairman.
    Ms. Vetter, the protection of intellectual property rights 
benefits all sectors of the U.S. economy, including 
agriculture. Now, American agriculture producers lead the world 
in innovation, and consumers around the globe view American 
brand names as a badge of quality.
    How do you view the relationship between the protection of 
intellectual property rights and agriculture? And, if 
confirmed, what will you do to improve the protection of 
intellectual property rights for American agricultural 
products?
    Ms. Vetter. Mr. Hatch, thank you for your question and 
thank you for your leadership on this issue.
    I know that you have been a strong advocate for 
intellectual property protection for many years, and it is 
critical to, not only increasing agricultural exports, but 
frankly to meeting the food security needs of a world where we 
will need to feed 9 billion people by 2050.
    I think there are three specific areas that come to mind 
for me where we need to work together on protecting 
intellectual property rights in agriculture. And one is, of 
course, enforcing strong trademarks for U.S. brands that now 
are seen as a mark of high quality and of food safety, which is 
important to many consumers around the world. So we have to 
make sure that those are not infringed upon.
    Senator Hatch. All right. Go ahead.
    Ms. Vetter. The second area is in geographic indications. 
We and the European Union have a difference of views about the 
scope and the level of coverage that should be provided to GIs, 
and we need to work together to ensure that the U.S. dairy 
manufacturers, meat makers, for example, have the opportunity 
to sell products under generic names.
    And third, of course, is the protection of patents for the 
use of biotechnology and nanotechnology. These new technologies 
are important now and are widely used by U.S. producers who are 
looking for protection for those products overseas, but they 
will also be a critical tool in the next generation of 
agricultural products that help us deal with the need to 
produce more food with fewer natural resources.
    So I look forward to working with you on those protections.
    Senator Hatch. Well, thank you.
    Dr. Chen, one proposal to help the financial conditions of 
the Trust Funds associated with the Social Security system, 
specifically the Disability Insurance Trust Fund and the 
separate Old-Age and Survivors Insurance Trust Fund, is to 
increase or eliminate what is called the tax max. Now, as you 
know, the tax max represents maximum earnings subject to Social 
Security payroll taxes, and is currently at $117,000, I 
believe.
    Now, justifications for this that I have heard include, 
one, we did it before; two, high earners, sometimes called the 
rich, have to pay their fair share; and three, there have been 
other times when we taxed a greater share of taxable earnings 
than we do today. However, the proponents of increasing taxes 
seem never to want to talk about the potential downsides, 
including adverse labor market effects, just to mention one. 
And I believe that is a mistake, to not consider the downsides.
    Dr. Chen, if earnings above the current tax max were to be 
subjected to payroll taxes, do you believe that there could be 
any adverse effects to consider; is there a downside to it?
    Dr. Chen. Thank you for the question, Senator Hatch.
    Increasing the share of taxable earnings subject to payroll 
taxes is certainly a viable option to consider, to help improve 
the long-term financial condition of the trust funds. As the 
trustees have made clear in their annual report, Congress can 
choose to shore up the financial condition of the trust funds 
through either reducing benefits, increasing taxes, or some 
combination of the two.
    Of course, if benefits are altered, no one entertains the 
notion of across-the-board benefit cuts. For example, some have 
suggested we ought to slow the growth of benefits for upper-
income earners while strengthening or enhancing benefit growth 
for those at the bottom end of the wage scale.
    To your question, Senator, I am concerned about the labor 
market impacts, potentially, of some proposals, such as the one 
you have discussed. I do believe that there is a potential 
impact with respect to the demand on labor, as well as, 
frankly, with respect to the tax reward for work. And so for 
those reasons, Senator, I believe we ought to look at a 
proposal like that one critically, as we should with all 
proposals, quite frankly. But I do believe it is proper to 
consider all solutions.
    Clearly, we are at a stage where the program faces 
significant challenges, and I would certainly encourage the 
Board to consider all possible solutions.
    Senator Hatch. Well, thank you so much.
    Could I ask one more?
    The Chairman. Of course, Senator Hatch.
    Senator Hatch. Mr. Selig, the International Trade 
Administration needs to be a powerful advocate for U.S. 
businesses and workers. In a hearing with Ambassador Froman 
last week, I expressed my concern that the agencies responsible 
for opening world markets for U.S. workers and job creators are 
losing the interagency battles necessary to do so. I am 
concerned that USTR has not been receiving the support it needs 
to prevail in the interagency process.
    Now, I am particularly bothered by the apparent lack of 
advocacy on behalf of strong intellectual property rights. I do 
not mean to harp just on that, but it is important to our 
country. Now, will you commit to me today that you and the ITA 
will be a strong voice for U.S. intellectual property rights in 
the interagency process?
    Mr. Selig. Thank you, Senator.
    I have met with Ambassador Froman already and talked to him 
about these very issues. Intellectual property rights span all 
industries and affect virtually every company in our economy. I 
commit to you to be vigilant and do everything I can to protect 
the intellectual property rights of U.S. companies, big and 
small alike.
    Senator Hatch. Thank you.
    My time is up.
    The Chairman. Thank you, Senator Hatch.
    Senator Isakson?
    Senator Isakson. Thank you, Mr. Chairman.
    Ms. Vetter, let me ask you a couple questions about 
agriculture. I represent the State of Georgia. One in four crop 
acres in my State is planted for export purposes.
    I am a big fan of the negotiations that are going on on 
both the Trans-Pacific Partnership and the Transatlantic Trade 
and Investment Partnership, but I am very worried that, in the 
end, we are going to continue to have regulatory barriers to 
U.S. agricultural products going into both Europe and the 
Pacific. In particular, poultry is the largest product in my 
State. Delaware is a huge poultry State. Europe uses non-tariff 
barriers like refusing to take chickens that are washed in 
chlorinated water, which is just a misdirection play to keep 
Georgia chickens out.
    What are you doing and what is Ambassador Froman doing to 
help bring down these non-tariff barriers to U.S. products?
    Ms. Vetter. Thank you very much for your question.
    You are absolutely right that, as tariff barriers have gone 
down in agriculture, those sanitary and phytosanitary barriers 
have, in fact, gone up. And we are working very hard, and, if 
confirmed, I will continue to work with you and others to make 
sure that we have a strong SPS agenda in these trade 
agreements, as well as a tariff agenda.
    We are looking at strengthened SPS provisions in the TPP, 
stronger than what we have included in past agreements, and we 
have been very clear at the outset of the TTIP negotiations 
with Europe that we would be seeking a strong SPS chapter and a 
real negotiation on the regulatory system.
    I am pleased to say that the European Food Safety Authority 
has in fact taken the first steps by giving a positive 
assessment that PAA, peroxyacetic acid, is actually a safe 
product to be used as a pathogen reduction treatment for 
poultry. And we will continue to watch and encourage that PAA 
goes through the European food safety system and is approved so 
that we can export those poultry products.
    Senator Isakson. Well, that would be a major change, in and 
of itself. Because pathogen reduction has been one of the 
requirements they have used to not allow those chickens to come 
into Europe. Is that not right?
    Ms. Vetter. That is true. That is right. So we will, again, 
be watching that issue very closely and working with our 
partners in Europe in hopes that that can be an approved 
treatment.
    Senator Isakson. Mr. Selig, I am a big fan of your future 
boss, Ms. Pritzker. She is a terrific Commerce Secretary.
    I am also a big fan of expanding trade, realizing that for 
American companies, many of them, the ability to expand market 
share depends on opening up markets overseas. So I am a big 
promoter of trying to get these trade negotiations completed so 
we have more opportunity for our companies.
    I think it is important, though, that we get Trade 
Promotion Authority passed in Congress. And we have one barrier 
that I know of, and that is that the Majority Leader, unlike 
the President, who has asked for it in his State of the Union 
address, the Majority Leader has tended to push it aside, and 
we have not had it on the agenda.
    I do not think Ms. Vetter can do her job, or that Mr. 
Froman can do his job, without TPA. Do you have any comment on 
that?
    Mr. Selig. Thank you for your question, Senator. I too am a 
big fan of the Secretary's.
    Both the President and the Secretary are on record 
supporting Congress passing the TPA. I do believe that TPA is a 
critical tool to bring home all trade agreements, TPP and 
others, and that the U.S. would be at a significant 
disadvantage without TPA. So I look forward to doing everything 
I can to be helpful to Congress moving this legislation 
forward.
    Senator Isakson. Thank you very much.
    Dr. Aaron, when I looked at my schedule last night, I was 
so excited that one of my constituents was going to be here 
today, in Hank Aaron. [Laughter.] But I found out when I walked 
in the room that I did not have the Hall of Famer. But I 
appreciate your service to Social Security.
    Let me ask you and all three of the appointees to the 
Advisory Board, or potential appointees, a question. I am one 
of those who tries to refrain from using ``entitlement reform'' 
when it comes to Medicare and Social Security, because those 
are contracts we have with the American people that they have 
paid good money for.
    But we are not going to be able to fulfill the promises of 
Social Security and Medicare if we do not reform both 
eligibility, as well as how the formula is done, as well as 
look at the revenue sources, like some of the things that Dr. 
Chen talked about. I hope the Advisory Board will be a vocal 
advocate of different alternatives that Congress has to save 
Social Security for the people who have paid for it.
    A lot of times when we talk about entitlement reform, 
people are afraid we are going to take something away from 
them. Well, the worst takeaway of all would be for us to allow 
our debt to grow and grow and grow, and our obligations to pass 
our ability to pay them, and then there would be nothing left 
at all for Social Security or Medicare.
    So you have a huge responsibility, and I would like, in the 
little time--well, I have only 36 seconds. I hope, as members 
of the Board, you will take the opportunity to be outspoken on 
different paths that we can take to save programs that the 
American people have paid for and that we promised them.
    The Chairman. And I want my colleague to have the time to 
be able to get a response. He has been very thoughtful, worked 
with me on chronic disease in terms of Medicare. So, Senator 
Isakson, you have additional time, and then we will recognize 
Senator Thune.
    Senator Isakson. Thank you, Mr. Chairman.
    Dr. Aaron. My response is that I think you have stated the 
problem and the challenge admirably. I also thought that Dr. 
Chen's description of the options before us was very well-
crafted.
    There are projected long-term deficits in Social Security, 
and near-term deficits in the Medicare Hospital Insurance Fund. 
Whatever we do to deal with those shortfalls is going to entail 
some tough choices, either raising revenues in some fashion or 
reducing the rate of growth of benefits in some fashion.
    Those are not options I think that rank high on the 
preferences of any of us, standing by themselves. But I think, 
working together, we can fashion compromises that should 
command widespread support in Congress and sustain these 
vitally important programs in the years ahead.
    Senator Isakson. Thank you.
    Dr. Chen?
    Dr. Chen. Senator Isakson, first of all, thank you for your 
leadership on these crucial issues. I just agree with my 
colleague; I think it is crucially important that we work 
together to ensure that the promises that we have made to our 
seniors and those who are disabled are promises that this 
government continues to be able to keep.
    And so, those are things that are important, and they would 
be a priority of mine, certainly, on the Board as well.
    Senator Isakson. Good.
    Dr. Cohen?
    Dr. Cohen. Social Security does have a modest long-run 
financing problem. We can pay full benefits for the next 20 
years and still be able to pay three-quarters of benefits 
thereafter, but that is not good enough. And so the Board, 
along with everybody else who worries about the Social Security 
program, will be looking at ways to fix that long-term 
financial challenge.
    And I might add, Senator, that the Board has pioneered the 
notion of getting all the options out on the table, and that 
they have published from time to time a list of all of the 
options for reducing the long-run financing problem of Social 
Security and how much each option would contribute to reducing 
that amount.
    So I expect to work very much with the Board, on the Board, 
on these issues. The Board has taken a strong interest in this 
in the past.
    Senator Isakson. I just wanted to make a point, Mr. 
Chairman.
    The Chairman. Please do.
    Senator Isakson. I was born December 28, 1944. In 1983, 
President Reagan and Tip O'Neill reformed eligibility for 
Social Security by saying anybody born after 1943 could not get 
it at age 65; they had to wait till age 66.
    I was born in the year after 1943. I did not think I was 
going to live to 66 to begin with. And my father had always 
told me the government was going to screw it up, and I needed 
to save for myself. And when I got to age 65, I did not even 
realize I had had a year taken away from me 29 years ago.
    My point is this: The quicker we deal with the fix, because 
of the time value of money, the easier the fix is going to be, 
both on the benefits side and the revenue side. And we still 
have time to do that, but we are going to need to elevate the 
discussion about that subject.
    And I appreciate the extra time. Thank you.
    The Chairman. Thank you, Senator Isakson.
    I am going to talk at the end a little bit about how we 
might elevate the discussion, because I think Senator Isakson 
is making an extremely important point. And on these issues, he 
has clearly been part of the effort to bring Democrats and 
Republicans together, and that is the key.
    Senator Thune?
    Senator Thune. Thank you, Mr. Chairman. And I would also 
like to associate myself with the remarks of my colleague from 
Georgia, and welcome the people who are going to be advising on 
these important issues, as there is no more important domestic 
policy issue, in my view, than dealing with the debt and 
deficit challenge that we are facing. And it is a crisis today; 
it is going to become even a bigger crisis if we do not deal 
with it.
    I want to speak a little bit to trade, so I would like to 
direct this question to Ms. Vetter. But one of the reasons that 
we need TPA is in order to reach a successful conclusion of the 
Trans-Pacific Partnership, or TPP.
    And as you know, a major focus of our agricultural 
producers is further opening the Japanese market to our 
products. Unfortunately, the Japanese government continues to 
insist on limiting access for certain commodities, such as 
wheat and rice, dairy, beef, pork, and sugar. And, while it may 
not prove feasible to completely eliminate every single tariff 
on every agricultural product, I think it is important that we 
reaffirm that the goal of America's free trade agreements is to 
come up with across-the-board tariff elimination. And I would 
argue that marginal improvements in market access simply are 
not good enough.
    So is your view that the goal of TPP should be tariff 
elimination across the board, and, if confirmed, is this a 
position that you will advocate for as America's Chief 
Agricultural Negotiator?
    Ms. Vetter. Thank you very much for your question.
    Indeed, in our negotiations on market access with all of 
our TPP partners--and there are a few where we do not yet have 
market access or free trade agreements--we are seeking as our 
goal tariff elimination on all goods, including those in 
agriculture. And our goal at the moment is to go line by line 
with those countries through those products and achieve the 
best and fullest market access agreement possible that we can 
get on all of those products.
    I would note, as I noted earlier on a question that Senator 
Wyden asked, that indeed our negotiations with Japan are 
difficult, but Japan has agreed that there will not be any 
exclusions of products and that each product, including those 
sensitive ones, will be addressed in this agreement.
    So our goal right now is working with you and with our 
stakeholders to get that best deal possible for all of U.S. 
agriculture.
    Senator Thune. Well, I guess I would point out too that I 
think it is important to keep in mind that the amount of new 
market access that we get from Japan is going to impact the 
market access we receive from other TPP countries. And a good 
example of this dynamic is dairy in Canada. We have, under 
NAFTA, dairy producers who have benefitted enormously in the 
American Southwest because of increased exports to Mexico, 
given the proximity to that country. Yet dairy producers in 
States with close proximity to Canada, such as South Dakota, 
continue to be limited in our dairy exports by virtue of their 
supply management system.
    So, if confirmed, how will you ensure that Canada makes the 
reforms necessary to eliminate unjustified barriers to U.S. 
agricultural products? And how did the past few weeks' 
agricultural market access discussions with Japan impact our 
ability to secure robust and commercially meaningful access to 
the Canadian dairy market?
    Ms. Vetter. Well, Senator, I could not agree with you more 
that the time is now for Canada to come forward with strong 
market-opening offers on dairy and poultry and egg products. We 
were very clear with Canada when they joined the TPP 
negotiations that we would be pushing hard for additional 
access to that market in those areas where we did not gain 
access under NAFTA.
    And, if confirmed as Chief Agricultural Negotiator, that 
will be one of my top negotiating priorities, making sure we 
can take advantage of that proximity to that critical market 
for us.
    Senator Thune. All right.
    Well, coming back to Asia, we recently raised with 
Ambassador Froman the growing problem with China and them not 
approving in a timely manner a lot of the new biotech traits 
for corn and soybeans. And I know from your position at USDA 
that you are familiar with that situation and the trade 
disruptions that it is causing.
    And I guess, again, I would ask, if you are confirmed, will 
you urge your counterparts in China to move expeditiously on 
the approval of agricultural biotech products that have already 
been approved in the United States for entry into the Chinese 
market? And similarly, will you work with the EU as part of the 
TTIP agreement to ensure that food safety systems are based on 
sound science and not other considerations? That is an issue we 
have, as you know, with the Europeans as well.
    Ms. Vetter. Absolutely. Those, in fact, are two top 
priorities that I have been working on in my position at USDA. 
And, if confirmed, I would be happy to continue to work with 
you to make sure we can advance our trade in biotech and other 
products, and to encourage science-based decision-making.
    Senator Thune. All right. Good. Thank you.
    Mr. Chairman, that is all I have. My time is up.
    The Chairman. Thank you, Senator Thune.
    Let me say to our nominees, we have four votes coming up on 
the floor.
    So I am going to say to you, Mr. Selig, I want to submit a 
question in writing with respect to trade enforcement, because 
certainly a big part of the country, when they hear about 
additional trade agreements--and I have voted for essentially 
every major market-opening agreement in my time in public 
service--people want to know, what are you going to do to 
enforce the laws on the books? So we will need that response 
quickly in writing from you, with respect to trade enforcement.
    And, apropos of Senator Isakson's very good point about 
raising the dialogue, which is a viewpoint that I share, I 
would like to say to the three nominees for the Social Security 
positions, I would especially like you to look at new ways to 
bring younger people into this discussion. Because I can tell 
you, I go to high schools. Now we call the program Listening to 
Oregon's Future. And we spend the first 40 minutes or so 
talking about student loans and parks and recreation areas that 
young people care about.
    And so I often say, I assume that you all are 16, 17, 18? 
And they say, that is right, Senator. I say, well, I bet when 
you get up in the morning and you are talking to your friends 
on your cell or you are tweeting or communicating with Facebook 
or something, I bet you talk about Medicare. [Laughter.] And 
they all look at me like I just lost it. And I say, and if you 
go on a date, you talk about Social Security. I am sure you do. 
[Laughter.]
    And then I say, of course I am kidding. But I am not 
kidding completely, because, apropos of Senator Isakson's 
point, we need to start this intergenerational dialogue in 
order to build bipartisan solutions that really span the 
generations. So, Senator Isakson talked about raising the 
dialogue. I would particularly like you to bring more younger 
people into that discussion.
    So, unless there is any other business or further questions 
for our nominees, we will just wrap up today. Members should 
know that we will keep the record open until Monday close of 
business. We will have a written question for you, Mr. Selig. 
Other members may have questions in writing.
    My hope is that we can get all of you confirmed 
expeditiously. I will do everything I possibly can to do that.
    And with that, the Finance Committee is adjourned.
    [Whereupon, at 11:24 a.m., the hearing was concluded.]
    
    
    
    
    
    
    
    
    
                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
















                                   [all]


</pre></body></html>
